      AUDIT OF FEDERAL TRANSIT
    ADMINISTRATION’S OVERSIGHT OF
  PIONEER VALLEY TRANSIT AUTHORITY
ELECTRIC BUS COOPERATIVE AGREEMENT

        Federal Transit Administration

        Report Number: MH-2008-058
          Date Issued: July 9, 2008
           U.S. Department of
                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit of FTA’s Oversight of                          Date:    July 9, 2008
           Pioneer Valley Transit Authority
           Electric Bus Cooperative Agreement
           Federal Transit Administration
           Report Number MH-2008-058

  From:    Joseph W. Comé                                            Reply to
                                                                     Attn. of:   JA-40
           Assistant Inspector General
            for Highway and Transit Audits

    To:    Federal Transit Administrator

           This report presents the results of our audit of the cooperative agreement between
           the Federal Transit Administration (FTA) and the Pioneer Valley Transit
           Authority (PVTA) in Springfield, Massachusetts, to design and build a pre-
           production prototype for a battery-powered transit bus. ElectraStor, a private
           company in Pittsfield, Massachusetts, conducted the activities of this cooperative
           agreement.

           FTA requested that the Office of Inspector General (OIG) review PVTA’s
           management of cooperative agreements. In responding to that request, we became
           aware of concerns related to PVTA’s management of its agreement with
           ElectraStor and initiated this audit. Our audit objectives were to determine
           whether:

                      • ElectraStor met Federal requirements to demonstrate that funds were
                        spent on activities eligible for FTA reimbursement, expenses were
                        prudent and reasonable, and costs incurred were necessary to
                        accomplish the project’s objectives;

                      • ElectraStor contributed and spent its local share of the project funding,
                        as required;

                      • ElectraStor achieved the project objectives as outlined in the
                        cooperative agreement and subsequent amendments; and
                                                                                2


      • FTA and PVTA exercised appropriate oversight over the project.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards as prescribed by the Comptroller General of the
United States and performed such tests as we considered necessary to detect fraud,
waste, and abuse. Details of our objectives, scope, and methodology are in
Exhibit A.


BACKGROUND ON COOPERATIVE AGREEMENT WITH PVTA
After Congress approved initial funding for the electric bus project in October
1999, FTA signed a cooperative agreement with PVTA in August 2000 to design
and manufacture one 22-foot battery-powered electric propulsion transit bus.
Before August 2000, PVTA had entered into an agreement with several parties,
including ElectraStor, to prepare an electric bus proposal for FTA, whereby
ElectraStor would actually develop and manufacture the electric bus. The project
requirements were amended in July 2001, reducing the project’s scope to focus on
the nickel-hydrogen battery to be used in a transit bus.

Federal funding allocated for the electric bus project totaled about $4.25 million
between 1999 and 2005. The total included $3.45 million in earmarked funds and
$800,000 in FTA discretionary funds. As shown in the table below, over
$4 million of the Federal funds were paid to ElectraStor and the remaining
$200,000 was paid to PVTA.


           Table. Federal Funding for Electric Bus Project
                    Description                            Amount
      Earmarked Funds                                    $3.45 million
      Discretionary Funds                                  $800,000
      Total Federal Funds Obligated                      $4.25 million

      Costs Claimed by ElectraStor                        $9 million
      50 percent Requested for Reimbursement             $4.43 million

      Funds Paid to ElectraStor                          $4.04 million
      Funds Retained by PVTA                               $200,000
      Total Paid for Project by FTA                      $4.25 million
      Source: OIG Analysis of FTA data
                                                                                                                   3


FTA’s cooperative agreement with PVTA set forth requirements for implementing
the project. As the table above also shows, the cooperative agreement stipulated
that FTA would pay 50 percent of the project costs and the recipients would pay
50 percent of the project costs from non-Federal sources (local share).
Additionally, the agreement required grant recipients, including third-party
recipients such as ElectraStor, to comply with applicable Federal regulations
regarding supporting documentation, eligible project costs, and the 50-percent
local share requirements.

The cooperative agreement also specified oversight responsibilities for FTA and
PVTA. For example, the FTA project manager was to verify that milestones were
achieved before approving claims for reimbursements. PVTA was to award and
manage third-party contracts; conduct project status reviews; prepare progress,
technical, and financial reports; and notify FTA of any unexpected problems. It
was also to review the operational requirements for the battery to ensure that it
would meet PVTA needs. For these oversight activities, PVTA received 5 percent
of the Federal project funds. In addition to responsibilities in the cooperative
agreement, FTA’s regional office in Cambridge, Massachusetts, was to conduct
annual risk assessments of all project recipients.

During the course of the project, ElectraStor submitted 31 claims for
reimbursement through PVTA to FTA. The claims totaled approximately
$9 million in project costs, for which ElectraStor requested a 50-percent
reimbursement, or approximately $4.43 million. Of the $4.43 million, FTA paid
$4.25 million in Federal funds to PVTA, which then reimbursed ElectraStor
$4.04 million between August 2000 and May 2005. PVTA retained the remaining
$200,000 1 as compensation for its oversight activities. FTA halted further
payments when concerns about the project were raised.


RESULTS IN BRIEF
ElectraStor received $4.04 million in Federal reimbursements for ineligible
claims. The claims were determined to be ineligible for reimbursement based on
the incomplete and unreliable records ElectraStor made available to the audit
team. Specifically, the $9 million in project costs listed on the 31 reimbursement
claims to FTA were not traceable to the documentation ElectraStor provided to the
audit team. Overall, the records provided were not sufficient to determine whether
the costs cited were accurate and eligible for Federal reimbursement, or whether
ElectraStor had provided its required 50 percent share of the project costs. We
found that:


1
    The total reimbursed ($4.04 million to ElectraStor and $200,000 to PVTA) add up to $4.25 million due to rounding.
                                                                                  4


   • records ElectraStor provided did not include bank statements for 26 of the
     67 months reviewed (August 2000 through February 2006). Statements
     that were provided were missing pages or were otherwise incomplete.
     General ledger records were made available only for year 2000, the first
     year of the cooperative agreement.

   • $284,000 in payments to consultants was not supported by documentation
     that was required to show what was done to earn the payment, or whether
     the work was related to battery research.

   • $115,000 for lobbying expenses was cited in ElectraStor’s records as a
     reimbursement expense even though lobbying is not eligible for Federal
     reimbursement.

Moreover, although FTA reimbursed $4.04 million in Federal funds to ElectraStor
through PVTA, ElectraStor did not provide evidence of any real progress in its
research to develop a nickel-hydrogen battery for use in a transit bus. For
example, during a visit to ElectraStor facilities, we observed a prototype battery
that ElectraStor officials said was much too large to fit in a bus and could hold an
electrical charge for only a few seconds.

Further, our review showed that neither FTA nor PVTA adequately carried out
oversight activities, such as the review of milestones achieved and claims for
reimbursement that are specified in the cooperative agreement. Although PVTA
still retained over $200,000 for its oversight role, the unsubstantiated claims were
not adequately reviewed before FTA reimbursed PVTA $4.25 million in Federal
funds. To its credit, however, since the time that we began this audit, FTA has
taken positive steps to address weaknesses in its oversight of grants and
cooperative agreements.

Based on our findings of insufficient documentation and oversight to support
claims for reimbursement, FTA has grounds to recover the entire $4.25 million in
Federal funds it paid for this project, which includes the $4.04 million paid to
ElectraStor and $200,000 retained by PVTA.

To attain a full explanation of the insufficient documentation to substantiate the
claims, further information may be required. Consequently, nothing in this report
should be deemed to relieve any individual or entity of criminal liability. A
complete list of our recommendations is on page 10 of this report.

In its June 3, 2008, comments on our draft report, FTA concurred with our four
recommendations. FTA’s comments and our response are discussed fully on
page 11 of this report. FTA’s complete comments are in the appendix to this
report.
                                                                                  5


FINDINGS

ElectraStor Received Federal Reimbursement of $4.04 Million, but Did
Not Provide Complete or Reliable Records Supporting Its Claims
Although ElectraStor was reimbursed with $4.04 million in Federal funds,
ElectraStor did not provide adequate records to the audit team to show how the
money had been spent nor demonstrate that only eligible costs had been incurred
to develop a bus battery. The Office of Management and Budget (OMB) and FTA
regulations referenced in the cooperative agreement require recipients of Federal
funds to maintain documentation to support eligible project costs, including costs
for consultants and meals. The regulations also require that all costs charged to a
federally reimbursable project be supported by properly executed payrolls, time
records, invoices, contracts, or vouchers that are “intact and readily accessible.”
The 31 claims ElectraStor submitted for reimbursement listed $9 million in project
costs. However, ElectraStor neither provided documentation to the audit team
showing that the cited costs were eligible for Federal reimbursement, nor
adequately demonstrated that ElectraStor contributed and spent its 50-percent
matching share of the project costs.

When we requested that ElectraStor provide supporting documentation for the
$9 million in claimed expenditures, ElectraStor’s chief scientist provided us access
to two file cabinets filled with files that did not support the claims ElectraStor
submitted to FTA for reimbursement. The files were a mixture of bills and
invoices from vendors that loosely correlated to the dates that the claims were
submitted to FTA. They were not comprehensive records. Specifically:

      • There were no bank statements covering 26 months of the 67-month
        period under review and bank statements for another 10 months were
        missing pages or were otherwise incomplete.

       • The check register ElectraStor provided contained no information dated
         after June 2004 and copies of checks provided were dated before
         May 2002.

       • General ledger records were made available only for the year 2000, the
         first year of the cooperative agreement.

ElectraStor’s chief scientist acknowledged that the files did not support the claims
submitted to FTA for reimbursement. Additionally, no one on ElectraStor’s staff
showed us how the claims ElectraStor submitted for reimbursements were
prepared.
                                                                                 6


Our analysis of available documentation did not find sufficient evidence that costs
incurred for items such as consultants were eligible for reimbursement under
Federal regulations. Also, we identified costs that, by definition, cannot be
reimbursed. The records the audit team was able to review showed that
ElectraStor made payments of more than $284,000 to five consultants but none of
the documentation ElectraStor provided showed what was done to earn the
payment, when the work was done, or any other evidence that the consultants were
supporting the development of the nickel-hydrogen battery. Further, the records
we reviewed showed expenses of at least $17,000 for meals in the first year of the
grant. ElectraStor provided no explanation or supporting documentation to link
the meals to battery research. Finally, the records showed more than $115,000 for
lobbying costs, a category specifically prohibited by OMB Circular A-87, and the
documentation did not support claims from ElectraStor officials that these
expenses were paid out of their own funds.

ElectraStor’s financial records were also insufficient to document that ElectraStor
contributed and spent its 50-percent matching share of the project costs, a
requirement for receiving Federal reimbursement.            According to Federal
regulations, a recipient must obtain its local matching share from sources other
than the Federal Government. Accordingly, ElectraStor’s local matching share for
the $9 million in claims would total approximately $4.5 million. However,
records made available for the audit team’s review did not support ElectraStor’s
claim that it provided local matching funds to the project. For example:

      • ElectraStor claimed five high interest short-term loans totaling
        approximately $2.8 million as part of its local matching share, but the
        records it provided were so scattered that we could not determine
        whether any of the loan proceeds were actually used for the project.

      • ElectraStor claimed another $2.5 million for an in-kind contribution for
        a debt owed to an engineering company for work performed during the
        project. However, the records provided showed that ElectraStor
        identified these costs as part of its local matching share but also claimed
        them as an expense for costs associated with project work. Because
        FTA reimbursed ElectraStor, the costs were not “contributed.”

In summary, based on the insufficient documentation and support provided to the
audit team for the claimed project costs and expenditures, we question the entire
$4.04 million that ElectraStor received in Federal reimbursements.
                                                                                   7


ElectraStor Did Not Provide Support That Progress Was Achieved
With the $4.04 Million in Federal Funds
ElectraStor did not develop the proto-type electric bus envisioned in the
cooperative agreement or meet the reduced goal to focus only on the bus battery,
despite claiming and receiving $4.04 million in Federal reimbursement. When the
audit team visited ElectraStor’s facilities, we did not observe a functioning battery
and we found no support for claims that research benefits from ElectraStor’s work
were demonstrated through existing patents.

The original scope of the electric bus program was reduced to focus on the
research, development, and demonstration of a nickel-hydrogen battery to be used
in a transit bus. The August 2000 cooperative agreement between FTA and PVTA
was for ElectraStor, as PVTA’s subcontractor, to design and produce a
demonstration model of a 22-foot battery-powered electric propulsion transit bus.
In July 2001, all participants agreed to reduce the project’s scope.

Our field work and other research did not provide evidence of any real progress in
ElectraStor’s research to accomplish this reduced scope. For example:

       • In spring 2006, during a visit to ElectraStor facilities, we observed a
         prototype battery that ElectraStor officials said was much too large to fit
         in a bus and could hold an electrical charge for only a few seconds.

       • In response to our subsequent request for research results, ElectraStor
         officials provided information about licensed patents and pending patent
         applications purportedly developed as part of the battery project.
         However, when we queried the U.S. Patent Office database, we found
         that the listed patents were held in the name of other companies—no
         patents were registered to ElectraStor.

In responding to the draft report, FTA noted that ElectraStor may not have had to
produce a functioning battery, but under the agreement, ElectraStor did have to
exercise its best efforts to produce a battery. Additionally, FTA noted that the
FTA project manager in the Office of Research, Demonstration, and Innovation
who was responsible for the project had indicated some accomplishments under
the agreement. In our opinion, the accomplishments indicated by the FTA project
manager, such as the unsupported claim that ElectraStor developed patents, are not
reliable. Since our field work, the project manager had been removed from his
responsibilities and has retired.

To obtain more reliable information for assessing ElectraStor’s research, FTA
should ensure that PVTA issues a final report on the accomplishments, if any,
                                                                                  8


resulting from the agreement, as required in the August 2000 cooperative
agreement.


Neither FTA nor PVTA Adequately Carried Out the Oversight
Activities Specified in the Cooperative Agreement
Although a full explanation regarding the insufficient support for project costs and
benefits may require further information, neither FTA nor PVTA performed the
oversight activities specified in the cooperative agreement. The FTA project
manager in the Office of Research, Demonstration, and Innovation neither
maintained the necessary contact with PVTA and ElectraStor nor adequately
reviewed the milestones achieved and claims for reimbursement. In addition,
PVTA performed no oversight of the project but merely forwarded claims for
reimbursement from ElectraStor to FTA and reimbursement payments from FTA
to ElectraStor. Because of their lack of oversight, neither FTA nor PVTA were
assured that Federal funds were spent on eligible activities; that ElectraStor
contributed and spent its 50-percent matching share of the project costs, as
required; and that adequate progress was made on the battery research.

Under the August 2000 cooperative agreement, FTA was required to oversee and
actively participate in the project and to verify the achievement of each specific
payable milestone prior to approval of reimbursement for the milestone. PVTA
was required to oversee ElectraStor activities and to provide reports to FTA on all
major activities and potential problem areas, as well as a final report on the
accomplishments resulting from the cooperative agreement.

We found that neither FTA nor PVTA performed the required oversight.
Specifically:

      • FTA’s project manager in the Office of Research, Demonstration, and
        Innovation signed and approved claims for reimbursements, but did not
        enforce the requirement that ElectraStor submit in-depth quarterly
        progress reports that would verify the achievements of each specific
        payable milestone. ElectraStor provided only 6 of 22 quarterly progress
        reports required by FTA circular 6100 chapter 3 section 5(b) to PVTA
        from 2000 through the end of 2005.

      • FTA’s regional office did not increase its oversight over PVTA to
        reflect the changing level of risk for PVTA shown in its annual risk
        assessments. Additionally, neither single audits of PVTA’s finances
        (conducted by an independent certified public accounting firm) nor
                                                                                                           9


               triennial reviews 2 of a sample of PVTA’s projects (conducted by the
               regional office) discovered the weaknesses in PVTA’s oversight of the
               activities at ElectraStor.

           • PVTA officials told us, contrary to the written text of the cooperative
             agreement, that PVTA had no oversight responsibilities; no expertise in
             batteries; and no role in carrying out the cooperative agreement, other
             than forwarding ElectraStor’s claims for reimbursement to FTA and
             forwarding FTA’s reimbursement payments back to ElectraStor. Yet,
             FTA reimbursed PVTA over $200,000 for forwarding the claims for
             reimbursement from ElectraStor to FTA.

Because of the inadequate oversight, neither FTA nor PVTA took appropriate
action to ensure the Federal requirements were being met and adequate progress
was being made on the electric bus project before $4.04 million in Federal funds
was paid to ElectraStor. In addition to seeking recovery of funds paid to
ElectraStor, FTA has grounds to recover the $200,000 paid to PVTA for its lack of
oversight activities. One option for a Federal agency to seek recovery of a debt is
to issue a demand for payment under the Federal Claims Collection Standards (31
CFR 901.2). An entity receiving a formal demand for reimbursement can provide
additional evidence to support costs claimed. Regulations on collection activities
are issued by the Secretary of the Treasury and the Attorney General of the United
States.


FTA Recently Took Steps To Improve Its Oversight
Since the time that we began this audit, FTA has taken positive steps to address
weaknesses in agency oversight of grants and cooperative agreements. For
example, in August 2006, FTA issued FTA Order 6200.1, establishing policies
and standards for the management of all FTA National Research and Technology
Program projects and funds. 3

In addition, FTA suspended all reimbursements to PVTA for projects associated
with ElectraStor, and in fiscal year (FY) 2007 FTA developed and carried out an
Action Plan for Improving Oversight Within the National Research Programs
(Action Plan). According to FTA, the agency has:

           • reviewed the agreements assigned to the former FTA project manager
             who was responsible for PVTA, and based on this review retained a

2
    The triennial review, mandated by Congress in 1982, is used by FTA as a management tool to exam grantee
    performance and adherence to current FTA requirements and policies. The review occurs once every 3 years.
3
    FTA Order 6200.1, “Federal Transit Administration’s Project Management Guidelines for Research Projects,”
    August 14, 2006.
                                                                             10


          private consulting firm to undertake five financial management
          oversight reviews to review the recipients’ internal controls;

      • developed a risk assessment approach to review research recipients to
        determine the level of appropriate oversight;

      • provided training for FTA staff on cooperative agreement management;

      • held a 1-day workshop for research recipients on their grant
        management responsibilities; and

      • contracted with a private consulting firm to assess FTA’s oversight
        processes, an assessment that included agreements such as the
        cooperative agreement with PVTA.         Based on the contractor’s
        recommendations, in FY 2008 FTA plans to establish an internal
        working group to implement the recommendations.


RECOMMENDATIONS
We recommend that the Federal Transit Administrator:

1. Disallow all future costs claimed by ElectraStor. Develop an action plan, in
   coordination with the OIG, to seek recovery of the $4.25 million in Federal
   funds paid for the project.

2. Establish specific milestones and reporting requirements for the internal
   working group that is being set up to implement recommended improvements
   in FTA’s oversight processes to ensure that all procedures included in the
   August 2006 FTA Order 6200.1 and the Action Plan to improve oversight over
   FTA research grants and cooperative agreements have been implemented and
   are functioning as intended.

3. Review other research grants or cooperative agreements for which the FTA
   project manager assigned to ElectraStor was responsible, to determine whether
   similar problems exist in other research agreements awarded by FTA.

4. Obtain from PVTA a final report disclosing the results of the research, as
   required in the cooperative agreement.
                                                                             11


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FTA a draft copy of this report on April 4, 2008. On April 16, 2008,
FTA provided us with suggested changes and comments on the project’s technical
progress. We incorporated FTA’s suggested changes and comments, as
appropriate. On June 3, 2008, FTA provided its written comments on the report.
In its comments, included as an appendix to the report, FTA concurred with our
recommendations and agreed to take the following actions.

      • Recommendation 1. FTA stated that it will develop an action plan, in
        coordination with the OIG, to seek recovery of the $4.25 million in
        Federal funds by August 31, 2008.

      • Recommendation 2. FTA stated that it has established a working
        group to implement recommended improvements in FTA’s oversight
        processes and will develop milestones for program implementation by
        September 1, 2008.

      • Recommendation 3. FTA stated that it has completed five Financial
        Management Reviews, representing five grantees and nine projects
        assigned to the FTA project manager responsible for ElectraStor
        projects. The reviews will be provided to the OIG by June 30, 2008.
        Additionally, FTA stated that the lessons learned from these reviews
        will be used as part of recommendation 2.

      • Recommendation 4. FTA will request PVTA to provide a final report
        disclosing the results of the research by June 30, 2008.


ACTIONS REQUIRED
We consider FTA’s planned actions reasonable. We will continue to monitor the
status of FTA’s implementation of our recommendations, in accordance with
Department of Transportation Order 8000.1C, until the planned actions are
completed.

We appreciate the courtesies and cooperation of FTA representatives during this
audit. If you have any questions concerning the report, please call me at
(202) 366–5630.



                                       #
                                                                             12




EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
The objectives of this audit were to determine whether:

      • ElectraStor met Federal requirements to demonstrate that funds were
        spent on activities eligible for FTA reimbursement, expenses were
        prudent and reasonable, and costs incurred were necessary to
        accomplish the project’s objectives;

      • ElectraStor contributed and spent its local share of the project funding
        as required;

      • ElectraStor achieved the project objectives as outlined in the
        cooperative agreement and subsequent amendments; and

      • FTA and PVTA exercised appropriate oversight over the project.

To accomplish these objectives, we:

      • interviewed FTA Research and Development staff to determine what
        oversight activities were performed.

      • interviewed PVTA officials, the Chief Finance Officer, and the Director
        of Procurement and Transit, to assess PVTA’s role in grant and
        cooperative agreement administration and oversight.

      • conducted several site visits at ElectraStor’s facilities in Pittsfield
        Massachusetts, and met with the ElectraStor CEO and chief scientist—
        to discuss the project’s scope of work, activities conducted, and the
        internal controls over the use and accounting of project funds. We also
        discussed the means by which ElectraStor obtained and maintained its
        required local share of funding for the project.

      • reviewed and analyzed available documentation maintained at
        ElectraStor to support invoices submitted to PVTA for FTA
        reimbursement.

      • relied on the limited records and other documents available to develop
        our overall observations and information on individual expenses.

We conducted this performance audit from April 2006 through January 2008, in
accordance with Generally Accepted Government Auditing Standards as
prescribed by the Comptroller General of the United States.


Exhibit A. Objectives, Scope, and Methodology
                                                          13




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                 Title

  Tom Yatsco                           Program Director

  James Corcoran                       Program Director

  David Pouliott                       Project Manager

  Mary Thomas                          Project Manager

  Laurence Burke                       Senior Analyst

  Kathleen Conway                      Analyst

  David Deutsch                        Analyst

  Harriet E. Lambert                   Writer-Editor




Exhibit B. Major Contributors to This Report
                                                                                                14




            APPENDIX. MANAGEMENT COMMENTS


                                                           Memorandum
 Subject:   Response to Audit of Federal Transit Administration’s       Date:

            Oversight of Pioneer Valley Transit Authority electric
            Bus Cooperative Agreement (06M3005M001)
  From:     Robert J. Tuccillo                                       Reply to
            Associate Administrator for                              Attn. of:   R.G. Owens
             Budget and Policy/CFO                                               X61689

    To:     Joseph W. Come
            Assistant Inspector General for
             Highway and Transit Audits

The Federal Transit Administration is providing our proposed corrective actions to address the four
recommendations in the Office of Inspector General (OIG) Audit of FTA’s Oversight of Pioneer Valley
Transit Authority (PVTA) Electric Bus Cooperative Agreement, forwarded to our agency on April 4,
2008.

Proposed corrective actions on recommendations 1-4:

    1. Concur. FTA will develop an action plan by August 31, 2008, in coordination with the OIG, to
       seek recovery of the $4.25 million in Federal funds paid for the project.

    2. Concur. The FTA working group has been established and will develop milestones for program
       implementation by September 1, 2008.

    3. Concur. FTA has undertaken this recommendation. The five Financial Management Reviews
       representing five grantees and nine of the Project Managers’ projects have been completed. The
       reviews will be provided to the OIG by June 30, 2008. Findings within the reviews did not rise
       to the level of those for PVTA. Lessons learned from the reviews will be used as part of
       recommendation number two.

    4. Concur. FTA will request PVTA to provide a final report disclosing the results of the research
       by June 30, 2008.

We appreciate your assistance and guidance regarding our proposed response to the audit. If you have
any questions regarding our response, please contact Bob Owens, our Audit Liaison at x61689.




            Appendix. Management Comments
